     Department of Homeland Security

     ��������������������������


      FEMA’s Application of Rules and Federal 

     Regulations in Determining Debris Removal 

      Eligibility for Livingston Parish, Louisiana 





OIG-14-01-D                                 October 2013

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                                     October 24, 2013

MEMORANDUM FOR:                Joseph Nimmich
                               Associate Administrator, Response and Recovery
                               Federal Emergency Management Agency


FROM:                          John V. Kelly
                               Assistant Inspector General
                               Office of Emergency Management Oversight

SUBJECT:                       FEMA’s Application of Rules and Federal
                               Regulations in Determining Debris Removal
                               Eligibility for Livingston Parish, Louisiana
                               FEMA Disaster Number 1786-DR-LA (Hurricane Gustav)
                               Audit Report Number OIG-14-01-D

We audited the Federal Emergency Management Agency (FEMA) to determine whether
it correctly applied its rules and regulations to determine the eligibility of debris removal
costs that Livingston Parish, Louisiana (Parish), claimed for recovery from Hurricane
Gustav, which occurred in September 2008. We conducted this audit at the request
of the Parish and Congress pursuant to the requirements of Section 565 of
Public Law 113-6.

We conducted this performance audit between April 2013 and August 2013, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA officials at the Louisiana Recovery Office in New Orleans and
Baton Rouge, Louisiana; FEMA Region VI Office in Denton, Texas; and FEMA
Headquarters in Washington, DC. We also interviewed officials at the Parish and the
Governor’s Office of Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee; reviewed available documentation; researched and reviewed FEMA rules
and regulations applicable to reviewing claims for Category A work (debris removal)
under the Public Assistance grant program; and performed other procedures considered
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


necessary to accomplish our objective. We did not assess the adequacy of FEMA’s
internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of FEMA’s
processes for determining debris removal eligibility.


                                             BACKGROUND

High winds and rain from Hurricane Gustav damaged trees throughout the Parish. FEMA
developed debris removal grant projects for the Parish to remove leaners and hangers,
clear waterways, and monitor debris removal.1 FEMA subsequently reduced project
funding because FEMA deemed some of the costs ineligible. The Parish filed its first
appeal of FEMA’s unfavorable funding decision for debris removal monitoring and FEMA
partially granted the appeal. The Parish then filed first and second appeals for the
leaners and hangers; however, FEMA denied both appeals. The Parish later filed first
and second appeals for clearing waterways; FEMA denied the first appeal, and, for the
second appeal, did not make a decision. Instead, FEMA responded to the Parish saying
that FEMA was no longer reviewing the Parish’s claims because of the Parish’s request
for this audit by our office.

We received a letter from the Parish, dated April 3, 2013, and a letter from Senator
Mary Landrieu, dated April 11, 2013, both requesting an audit pursuant to Section 565
of the Consolidated and Further Continuing Appropriations Act, 2013, Public Law 113-6.

          SEC. 565. The Inspector General shall review the applications for public assistance
          provided through the Disaster Relief Fund with a project cost that exceeds
          $10,000,000 and the resulting decisions issued by the Federal Emergency
          Management Agency for category A debris removal for DR–1786 upon receipt of a
          request from an applicant made no earlier than 90 days after filing an appeal with
          the Federal Emergency Management Agency without regard to whether the
          Administrator of the Federal Emergency Management Agency has issued a final
          agency determination on the application for assistance: Provided, That not later
          than 180 days after the date of such request, the Inspector General shall
          determine whether the Federal Emergency Management Agency correctly applied
          its rules and regulations to determine eligibility of the applicant’s claim: Provided
          further, That if the Inspector General finds that the Federal Emergency
          Management Agency determinations related to eligibility and cost involved a
          misapplication of its rules and regulations, the applicant may submit the dispute to


1
 “Leaners” are typically storm-damaged trees that pose an immediate threat to lives, public health and
safety, or improved property. “Hangers” are typically hanging limbs (still attached to trees) that threaten
public areas. Public Assistance Debris Management Guide (FEMA 325, July 2007, pp. 24-25) sets forth the
eligibility criteria for leaners and hangers.

www.oig.dhs.gov                                      2                                            OIG-14-01-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        the arbitration process established under the authority granted under section 601
        of Public Law 111–5 not later than 15 days after the date of issuance of the
        Inspector General’s finding in the previous proviso: Provided further, That if the
        Inspector General finds that the Federal Emergency Management Agency provided
        unauthorized funding, that the Federal Emergency Management Agency shall take
        corrective action.


                                        RESULTS OF AUDIT

Although nothing came to our attention to indicate that FEMA’s decisions on the
eligibility of the Parish’s debris removal costs were not appropriate, FEMA did not
always follow Federal rules and regulations in making those decisions. Specifically, for
two appeals (one granted and one denied), FEMA did not respond within the 90-day
time limit that Federal regulation requires. Finally, in a third instance related to the
Parish’s second appeal for reimbursement of costs it incurred for clearing waterways,
FEMA held the appeal for 655 days—more than 21 months—before it responded.
However, in its response, FEMA did not notify the Parish of its final appeal
determination, but rather stated that it was no longer reviewing the Parish’s claims
because of this audit. We did not ask FEMA to stop making eligibility determinations
because of our audit. However, by not making a decision on this second-level appeal,
FEMA has, in effect, denied the Parish’s appeal for reimbursement without following
Federal regulation.

Criteria for Assessing the Eligibility of Debris

FEMA’s authorities governing debris removal are supplied by statute, regulation, and
FEMA policies (see exhibit A). Much of the criteria apply to the applicant, providing
specific guidance on what debris is eligible and how the applicant must document costs
for eligible debris removal. However, there are few regulations that instruct FEMA on
how to apply the criteria, which affords FEMA the flexibility to carry out its mission
according to the circumstances of each unique disaster.

Federal regulation 44 CFR 206.206(c)(3) establishes deadlines for FEMA to respond to
appeals, which generally relate to eligibility decisions or cost reasonableness:

        Within 90 days following receipt of an appeal, the Regional Director (for first
        appeals) or Associate Director/Executive Associate Director (for second appeals)
        will notify the grantee in writing of the disposition of the appeal or of the need for
        additional information. A request by the Regional Director or Associate
        Director/Executive Associate Director for additional information will include a date
        by which the information must be provided. Within 90 days following the receipt
        of the requested additional information or following expiration of the period for

www.oig.dhs.gov                                     3                                            OIG-14-01-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


         providing the information, the Regional Director or Associate Director/Executive
         Associate Director will notify the grantee in writing of the disposition of the
         appeal. If the decision is to grant the appeal, the Regional Director will take
         appropriate implementing action.

FEMA Did Not Always Respond Timely to Appeals

As table 1 shows, FEMA did not respond timely to the Parish’s appeals in three
instances.

                           Table 1. Untimely Responses to Appeals
                                                                                               Days
                                           Date FEMA          Date of         Date FEMA        FEMA
  Project       Project        Appeal       Received        Parish Oral       Responded       Took to
 Numbers      Descriptions      Type         Appeal        Presentation       to Grantee      Respond
                 Debris
   166        Monitoring         First     06/01/2010           N/A           11/19/2010         171
               Leaners &
    54          Hangers        Second      01/18/2011       05/10/2011        01/06/2012         241
5590, 5591,
5593, 5594     Waterways       Second      09/15/2011           N/A           07/01/2013         655

         FEMA Region VI received a first-level appeal from the Parish, through GOHSEP,
         on June 1, 2010, for debris monitoring under Project 166. FEMA Region VI
         partially granted this appeal, but its November 19, 2010, response was more
         than 2 months beyond the 90-day deadline of August 30, 2010.

         FEMA Headquarters received a second-level appeal from the Parish, through
         GOHSEP, on January 18, 2011, for leaners and hangers under Project 54. The
         Parish also made an oral presentation to FEMA on this appeal on May 10, 2011.
         FEMA Headquarters denied this appeal on January 6, 2012, which was almost a
         year from the date FEMA received the appeal and almost 8 months after the
         Parish’s oral presentation.

         FEMA Region VI initially denied the Parish’s first appeal on leaners and hangers,
         saying that FEMA field staff had performed a thorough assessment to validate
         eligible work, and that a second sampling that GOHSEP performed resulted in
         less eligible work, confirming the reasonableness of FEMA’s determination.

         In its denial of this second-level appeal on leaners and hangers, FEMA
         Headquarters said that FEMA Region VI used the appropriate methodology and
         applied the appropriate regulations and policy to deny the Parish’s claim. FEMA

www.oig.dhs.gov                                    4                                        OIG-14-01-D
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        Headquarters added that the Parish’s contractor completed ineligible debris
        removal work.

        FEMA Headquarters received the Parish’s second appeal, through GOHSEP, on
        September 15, 2011, for clearing waterways under Projects 5590, 5591, 5593,
        and 5594. Federal regulation 44 CFR 206.206(c)(3) required FEMA to respond by
        December 14, 2011. However, FEMA did not respond until July 1, 2013, more
        than a year after the 90-day deadline.

        FEMA Region VI had previously denied the first-level appeal for waterways
        because the Parish failed to (1) prove immediate threat; (2) comply with
        environmental laws and regulations; and (3) obtain required permits.2

        FEMA Headquarters July 1, 2013, letter to the Parish said that it was no longer
        reviewing the Parish’s claims related to this second appeal because of this Office
        of Inspector General audit.3 Thus, although FEMA Headquarters did respond, it
        did not notify the Parish of its second appeal disposition. This effectively denied
        the appeal.

Our audits of debris removal generally assess whether applicants followed Federal
procurement standards in contracting for the debris-related work and maintained
documentation to validate and support the costs for the amounts of debris the
applicants claimed. However, unless the records indicate otherwise, we generally rely
on FEMA’s expertise to assess the eligibility of the debris itself.4 FEMA typically
determines eligibility, soon after the disaster. Such timeliness is essential because, while
a review of paperwork years later can often prove that debris was not eligible, it can
seldom prove that debris was eligible. For example, FEMA uses its expertise to decide
whether (1) the debris resulted from a major disaster event;5 (2) leaners and hangers
met eligibility criteria; and (3) applicants removed debris from eligible areas, such as



2
  44 CFR 206.221(c) defines immediate threat as “the threat of additional damage or destruction from an
event which can reasonably be expected to occur within 5 years.”
3
 FEMA’s letter of July 1, 2013, addressed both (1) the Parish’s December 2012 request for reconsideration
of the second appeal on Project 54 for leaners and hangers and (2) the Parish’s second appeal on Projects
5590, 5591, 5593, and 5594 for clearing waterways.
4
 Public Assistance Debris Management Guide (FEMA 325, July 2007, p. 23) states, “Only FEMA has the
authority to make eligibility determinations for Public Assistance grant funding; contractors cannot make
eligibility determinations.”
5
 44 CFR 206.223(a)(1) states that to be eligible for financial assistance an item of work must be required
as a result of the major disaster event.

www.oig.dhs.gov                                     5                                        OIG-14-01-D
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


publically-owned property, rather than from ineligible areas, such as private property or
wooded areas that do not threaten the general public.6

By not issuing a decision on the Parish’s second appeal for the waterways, FEMA failed
to follow Federal regulation requiring a notice of disposition within 90 days. FEMA
should assess the lessons learned from its interactions with Livingston Parish and
consider (1) strengthening its policies, procedures, and internal controls regarding first ­
and second-level appeals to ensure that the agency responds in a timely manner as
Federal regulation 44 CFR 206.206(c)(3) requires; and (2) documenting the reasons why
a timely response was not feasible when FEMA cannot complete its determination in
the specified time.

Conclusion

FEMA has an abundance of policies, rules, and regulations regarding how applicants
should conduct debris removal, but few instruct FEMA on how to apply those criteria in
assessing the eligibility of debris. However, Federal regulation 44 CFR 206.206(c)(3) does
impose specific deadlines on FEMA to respond to appeals from a grantee or grant
applicant. FEMA did not meet these deadlines in three instances; and, in the third
instance, FEMA did not make a decision on the appeal.

This audit did not identify any instances where FEMA misapplied any of its policies or
procedures when it made a determination on the eligibility of the applicant’s claim.
However, by not making a decision on the eligibility of work in the Parish’s waterways
second appeal, FEMA, in effect, denied the Parish’s reimbursement without following
Federal regulation.




6
 Public Assistance Debris Management Guide (FEMA 325, July 2007, p. 22) cites an example of ineligible
debris removal as any debris removal from an eligible applicant’s unimproved property or undeveloped
land. The guide also states (p. 33) that private property debris removal is generally not eligible for
reimbursement because debris on private property does not typically present an immediate health and
safety threat to the general public.

www.oig.dhs.gov                                    6                                        OIG-14-01-D
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                    MANAGEMENT COMMENTS AND OIG ANALYSIS

FEMA officials commented verbally and provided us copies of documentation during the
discussion of our draft report with them at the exit conference on August 14, 2013. On
August 29, 2013, FEMA provided a written response to the draft report, which we have
included in its entirety as exhibit B. Below, we summarize FEMA’s verbal and written
comments and our analysis of those comments.

FEMA’s Verbal Comments at the Exit Conference

At the August 14, 2013, exit conference, FEMA officials agreed that they were
sometimes late in responding to the Parish’s appeals. However, they objected to our
finding regarding the second appeal of the waterways, saying that the Parish requested
FEMA suspend the Parish’s appeal request so that it could submit additional
documentation. FEMA also contended that, because the Parish continued to provide
FEMA supplemental information, the Parish implied that it wanted FEMA to consider
the supplemental information in its appeal determination. FEMA said it could, therefore,
not make a determination within the 90-day requirement. FEMA presented
documentation that it interpreted as supporting the Parish’s request for FEMA to refrain
from responding to the appeal until the Parish submitted all its supplemental
information and oral presentations.

FEMA’s Written Comments on the Draft Report

On August 29, 2013, FEMA’s Associate Administrator for Response and Recovery and
FEMA’s Chief Counsel responded to our draft report saying they did not believe that
failure to respond timely to appeals constituted a determination related to eligibility
(see exhibit B). Further, they said our report did not satisfy the OIG’s statutory
obligation under Section 565 of Public Law 113-6. FEMA asserted the law requires the
OIG to assess FEMA’s eligibility determinations regarding the eligibility of the Parish’s
debris removal activities. They also agreed to the need to strengthen FEMA’s policies
and procedures regarding first and second appeals to ensure timeliness.

OIG Analysis of FEMA’s Comments

While we understand FEMA’s interpretation of the law regarding our responsibilities
under Section 565, we do not agree that the legislation required us to assess FEMA’s
eligibility decisions. FEMA has few promulgated rules instructing its administration of
Public Assistance grants; rather, nearly all its rules and regulations are directed towards
applicants. FEMA stated in its comments that we should have assessed whether it made

www.oig.dhs.gov                              7                                   OIG-14-01-D
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


correct eligibility determinations pursuant to 44 CFR 206.223 and 44 CFR 206.224.
However, 206.223 concerns applicant eligibility not FEMA responsibilities. Section
206.224 provides merely the factors FEMA should consider in assessing whether
removing debris is in the public interest. It does not explicitly say how FEMA must
consider these factors. Therefore, given the nature of the regulations and the fact that
we were not present in Livingston Parish after Hurricane Gustav, we believe that Section
565 required us to assess whether FEMA applied its rules in the determination of
eligibility, not whether FEMA made the correct determination regarding the eligibility of
the debris work. In that regard, the only instance we noticed as to whether FEMA
correctly applied its rules and regulations concerned timeliness. Federal regulation 44
CFR 206.206(c)(3) requires a timely response to appeals, and FEMA did not always notify
the Parish of its disposition within the required time frame. In one instance, FEMA did
not make a final decision or issue a final disposition notice. Therefore, FEMA did not
comply with this Federal regulation.

We reviewed the documentation FEMA provided at the exit conference to support its
decision to not issue a final appeal disposition notice. However, the documentation did
not include a request by the Parish for FEMA to suspend its appeal process. Even if it
did, such a request would not have prevented FEMA from responding within the time
frame allowed by Federal regulation. Further, the timeline FEMA provided in its written
response shows that FEMA received the Parish’s final documentation on February 27,
2013, and FEMA did not respond to the Parish until July 1, 2013, over a month beyond
the 90-day response deadline.


                          DISCUSSION WITH MANAGEMENT

We discussed the results of our audit with Parish officials on June 24, 2013, with FEMA
Region VI officials on July 18, 2013, and with FEMA Headquarters officials on
July 22, 2013. We also provided a draft report in advance to FEMA officials and
discussed it at an exit conference with them on August 14, 2013. We have included
FEMA’s verbal and written comments in this report, as appropriate, and have included
FEMA’s written response, in its entirety, as exhibit B.

This report does not contain any recommendations; therefore, you do not need to
provide our office with a written response.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and



www.oig.dhs.gov                             8                                 OIG-14-01-D
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Judy Martinez,
Audit Manager; and Susan Stipe, Auditor-in-Charge.

Please call me with any questions at (202) 254-4100, or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            9                                  OIG-14-01-D
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                                 Exhibit A
                                  List of Applicable Criteria

Robert T. Stafford Disaster Relief and Emergency Act, as amended, 42 U.S.C. §§ 5121­
5207
       Section 403 Essential Assistance 

       Section 407 Debris Removal 


44 CFR
         Section 206.206 Appeals
         Section 206.221(c) defines immediate threat
         Section 206.221(d) defines improved property
         Section 206.223(a)(1) Be required as a result of the major disaster event
         206.224 Debris Removal

Public Assistance Applicant Handbook, FEMA-323, September 1999

Public Assistance Debris Management Guide FEMA 325, July 2007

Public Assistance Guide FEMA 322, June 2007

Public Assistance Pilot Program—Program Guidance—Guidance for FEMA, State, and
Local Officials FEMA 598, June 2007

Public Assistance Policy Digest FEMA 321, January 2008

Disaster Assistance Policies (DAP), Standard Operating Procedures (SOP), Recovery
Policies, and Fact Sheets
        9523.11 Hazardous Stump Extraction and Removal Eligibility, May 2007
        9523.12 Debris Operations—Hand-Loaded Trucks and Trailers, May 2006
        9523.13 Debris Removal from Private Property, July 2007
        9570.14 Program Management and Grant Closeout, August 2012
        9580.4 Debris Operations—Clarification Emergency Contracting vs. Emergency
        Work, January 2001
        9580.201 Debris Removal Applicant’s Contracting Checklist, Prepared August
        2006
        9580.202 Debris Removal Authorities of Federal Agencies, January 2007
        9580.203 Debris Monitoring, May 2007



www.oig.dhs.gov                             10                                  OIG-14-01-D
                  m    .   '
                               .
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


                                                                                                                              Exhibit B
                                                      FEMA Response


                                                                                        11.>;. O.pamn.,.. of UomdllDd s..u~
                                                                                        :<00 (" Slrt<~ $\\
                                                                                        W.ubint""'· DC !lk72




                                                      AUG 2 9 ZU13


            MEMOR.I\NDUM I'OR:              John V. Kelly
                                            Assistant Inspector General
                                            Office of=zmerency Management Oversight

            !·ROM:
                                            ._...t!t.~r~
                                           ~cp•y~
                                                            m- ::::.........._ :S ..
                                                           lC
                                            Associate Administrator for Response and Recovery

                                        .('..,Brad 1. Kieserman
                                              Chief Counsel "?/ /[
                                                                  4/
            StffiJECT:                      FEMII '11 Application ofRules and Federal Regulalions in
                                            Dctermi11ing /Jehris Removal £/igihility.for Livi11gston Parish.
                                            Loui.riana, FEMA Di.~astcr Number 1786·DR-LA (Hurricane
                                            Gust:1n) Audit Report Number DD 13-##

            The purpose of this memorandum is to pro\'ide FEMA comment to lhe Office oflnspector
            General (010) audit ''to determine whether [FEMA] correctly applied its rules and Federal
            regulations to determine the cligjbility of debris removal cost~ that Living:;ton Parish.. Louisiana
            (Parish) claimed for recovery from Hurricane Gusta\.'. FEMA disagrees lhat a failure to timely
            decide a second level appeal coustiMes a "determination[] related to eligibility." More
            unportantly, fEMA does not agree that the OIG's audit of this matter satisfies its statutory
            obligation to review FEMA decisions for Category I\ debris removal ~ulting from Livingston
            Parish's application for public assistance.

            We respect that it i9 for the 010 to interpret lhe scope of its charge under section 565 of the
            Consolidated and Further Continuing Appropriations Act, 2013, Public Law 113-6. I low the
            010 interprets this statutory requirement, however, di.rcctJy affects whether there will be a
            subsequent arbitrotion and therefore impacts FEMA 's resources and program execution. It is
            FEMA 's view that Scl."lion 565 unequivocally requires the OJG to re~iew "'the applications for
            public assistance,~ received from Livingston Parish. and '1he resulting decisions issued by"
            FEM~ and determine whether those decisions or "determinations" resulted from FEMA
            "correct!)' uppl[ying] its rules and regulation;. to determin~ eligibilit; of the applicant's claim."
            In short. w~: believe the law requires the OJG to examine FEMA 's elij,tibility decisions with
            respect to Livingston Parish debris removal (of which there are many) and issue findings ,o,,-ilh
            respect to whether or not those decisions appropriately comported "'ith FEMA rules and
            regulations or whether they involved a "misapplication" of those rules and regulations.

             lnsteod, the OlG has explicitly stat.:d, "This audit •.. does not opine on the merits or lack tberoof
            concerning Lh•ingston Parish's application for disaster assistance." This is exactly, however,
            '\\hat FEMA believes the law required ofthe OlG when ircharged the OJG with reviewing
            applications for disaster a.o;.'>istanc~ and the resulting FEMA decisions. The OIG's failure to




www.oig.dhs.gov                                                 11                                                        OIG-14-01-D
                  m      .   '
                                 .
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




            pertbnn such an audit and its rdian.:e instead on the procedurdl i~suc of the timing ofFEMA's
            d~cisions, punts the subs!amive eligibility issue:; !GI lhe Civilian Board of Contracl Appeals
            (CBCA), denying the CBCA the benefit of any findings from the OTG. FBMA believo:s such an
            oul.come is contrary to the explicit language of section 565. Instead. section 565 requires the
            OIG to as8c~ ffi\fA 's elij!.ibility detcrmirunions with respoet to Livingston l'.arish' s application
            fo:r assistance thr dcl>ris removal from ils watei"W!l}""S and for leaners and hangers. Such review
            should include an assessment of wile! hilt FEMA IIUide correct el igihility dcterminntiuns in
            Hflplying its rules aud re~uletions, in<:luding 44 Cl;R 206.223 and 206.224, as well as it publllihed
            pol ide~ ou debris removal in the 9500 Seties and Fl~MA 325, Debris MutUJKf'mem Guide.

            With re$pt:d to time Iiness of decision muking on s~cond appeals, we disagree that FEMA 's
                                                                                                         1
            failun: to mecl.au appecl r~:spunse deadline is a "dcterrninttlion n:latod 11:1 eligibility.~ Tn
            addition, the draft audit re<ponse states "[b]y not making a. decision on this second-levelappcnl,
            FEM.A.. has, m effect, denied thePari~·s a.ppea.l for r::hnbmsement \\~lhnul following: due
            pro-:t:ss unJer· Fcdetal regulation." We di.sagr.::c that a failure by Fl:iM.A, to provide u timely
            response to a first or st:comllevcl appeal is ain effect," 11 denial of the app~;ul. First, the OIG's
            analysis requires <>nfy a dc:tcnnination that FEM.~ failed to adhere to a teg.ulalory requirement;
            any nddiliunal ~eftl;;ct" of such a failure i.-; (rfno impott to this analysis. Second, neither the
            StnfYord Act nor lts implementing regulll!ions require mt exhaustion of administrati vc remedies
            and, in any event, the Slllffiml Act at 42 U.S.C. 5148 "precludes judicial re\·iew" uf discretionary
            agency action. FEMA '~ de..:isions rcgaroing wlu:ther to gr.aut public assistance are "inherently a
            discreti<mury re~ponsibility," and "eligibility delt:nnlnations, .. re~ardlng the funding of eligible
            projects are Steps in this discretionary process." City ofSatt JJruM v. FE1'rU, 181 F. Supp. 2d
            1010, 1014-15 (N.D. CaL 2001); see St. Tammany Par.-~h. ex r~l Dt1¥is v. Fed Jimerger.cy
            Mgmf. Agency, 555 F.3d 307,325-26 (5th Cir. 2009). A fuilw-e by Fh!viA to mcct a statutory or
            regulttlory deadline for nn appeal responso:, thcrcf.;ue, doe~ not have tho "effect'' of providing a
            l'ttblic A:3Sistaoce npplic1111! will1 an avenue to seek, fur example, court revimv.

            Finally, FEiviA agtees on the need to strengthen its policie~ and l'roc~ures regarding first and
            ~ud- lcvel nppeals to er•surc time!inc.ss, and FEMA h!iS just recently published it~ l'uhlic
            A1sistance l'rogram Appeals directive ancll'u6licAssi3iancc: ProgramAppeall'rocedlo'es
            Jll!II1uallo be exccut~d by a newly t:Stabli.shod Public Assistance Ap~s Bmm:h, Thi~ Branch i~
            charged with improving I;~MA's appeal proces• lo -provide timely decistoos that prm·idc specific
            and reasoned decisions and also n c:ritical feedback loop to a(hise the Public A11sistancc Program
            on how and wbcr-:: to improve polici~:s and t11e project worksheet fonnulation p1-ocess.
            Significant training and outreuch lo FEM...<I,. regional und st11te personnel has already occumlu aud
            will be on-going,

            Thank yon for tile opportunity to cummcut.. If you have nny  lldditional questions concemirq1, tltis
            matter, please contact William Roche, Director of the l'uhlic Assistance Divisinn, Ill (202) 64<i-3834.

            1 In filet, with n:spccL tu !he Pnrish's JecQnd 3ppenl t~l w11!~rway debris remoVlll, FEMA t!u::s not Dir-e that il Wt.S
            untimely, Suhsequem to its s:cond npre:;l rr!qOC>!, the l'ari.•h mw 3 FOIArei!U:Iil, an oral p1-eserrtation 1':\lll<''l·
            •n<l d req11eat to •ubmit supplem=ntal infotPt3Liun, Tlte l'ati.t. did nor confirm i;s sc<o.md nppeal iUI>llJission •s Gn.d
            until February, 211n. Less than on: mooth latcr, P.L. 1 l~·<i wa-.igned io!o Jaw ar~<ltlie 010 informed L'EMA in
            April 2013 !hat tile !':ui.\lt lr>.A r-.:q<~<:>Led a reviev. porsu3nc to section 56S. FEMA U•en stopped !cs second app•"ul
            review- Jess dJan 90 days lium wh..:n111e l':ni•h submlmd it$ fill~ I '''""nd r.ppeal informalinn. I'EMA. thcrefut-c,
            does 00! agree th~~ it violutcc.J ezty rule or regulation wilb JUpcctl<~lltls second appeal. s~c Timeline. at=hed.




www.oig.dhs.gov                                                         12                                                                OIG-14-01-D
                  m  .   '
                             .
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                     Liyionton Parish -pebris Appeals in Hurricane Gustav
                                                   Second Appeals Timellne


              •   Debris Removallwaterwav~l {PWs 5590, 5591, 5593, 55'14)- The Parish requested $46M for the
                  cost of remoVing debris from waterN~ys (dreinage canals/ditches):

                     o       July 16, 2011 - The Parish submitted tile second appeal to the State.
                     o       August 9. 2011-The Palish submitted to the State a request for additional infonn~tion
                             from FEMA on the projeciS in queslfon.
                     o       August 17, 201 t- The State fmwarded the request for inrormation to l'EMA ~reference
                             FOIA 11-716).
                     o       ~eptemtler 12, 2011 - The State submitted the Parish's second appnllo FEMA.
                     c  September 23,2011- The Parish sent a letter to the State reque.~tlng an or~ I
                        presentation on the second appeal alld ~ted that they planned to submit additional
                        information in support of the appeal.
                     <> September 29, 2011- The St<lte forwarded to FEMA the Parish's request for ~nora[
                        presentation.
                     ~ Nov~mher 28,2011-The St~te ~on finned to FEMI\ in an e-mail that the Parish intended
                        to submit additional information i11 support of tlleir second 2ppeal.
                     o Oct:>ber 2, 2012 - Th~ FEMA Reoords Manll3ement Division sent to the f'arish a final
                        response to its request for additional iniorrnation. The search for r~cords prodU<ed
                        12,311 pages, provision or which included six interim releases to the Parish. Of the
                        12,:111 p<!ges, 1U,7<7 w~re released in their .:ntirety and 1,572 were detennlned to be
                        partially releasable.
                     o October 3. 2012 -HMA met with represent<rtives or the Parish on the second appeal.
                        lr1 addltlonto the oral pre;entation, the Parish's represent.ative acknowledged receiptor
                        the additional information from FEMA and stated titev would review the infurm~tion to
                        deteiTtline if tho f'arl.<h would subn1it any further Information on the second appeal.
                     o J~nuary 23, 2013 - li1~ Parish stated to FEMA in an :1-m;;il that they intend to subrnir
                        additional infonnation on the second appeal.
                     o February 22, :2013 - The Parish st~ted to FEMA in a11 e-mail that they would submit its
                        finalsupplementallr.formation on the s~cond appeal the following -.ek.
                     o Febru~ry 27,2013- The. Parish submits Its final (4") supplement to FEMA forthe seoond
                        appeal.
                     o Marth 26, 2013- The Consolidated and Further Continuing Appropriations Act was
                        signed Into law(PL 113-6). including a provision allowfne applk:ants to ask ttl¢ OIG to
                        review debris removal proj~cts over $10M In Hurricane Gustav.
                     a April 22. 2013- DHS OIG Informs FEMA that itt~ reviewing debris removal projects of
                        livingston Parish.
                     o July 1, 2013- FEMA sent a letter to the State indicating that the appc<ll was under
                        review by the OIG as of April 22. 2013, and as of that date It was no longer under review
                         byFEMA.




www.oig.dhs.gov                                                13                                                    OIG-14-01-D
                  m  .      '
                                .
                                          OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Debris Removal (lttaners and hansers) (PWS4)- The Parish requested $16M for the cost of
                  remo\'ing hazardOtJS trees and limbs FEMA provided $2.7M In fundl£11: based on a samjlle
                  validation tllat showed 16% of hazardous limbs and 34% of hazardous trees to be eligible:

                      o         January l2, 2011 - The State forwarded the Parish's second appeal to FEMA.
                      ::.       May 10, 2011- FEMA met with the Parish on the second appeal at the request of tilt!
                                Parish.
                      o         Janua1y 6, 2012 - FEMA denl(!d the second ~ ppeal.
                      o         December 3, 2012- TI1e Slate forwarded the Parish's rcquo;st ror re-consideration of
                                the second appeal.
                      o         July 1, 2013- FEMA sent it 1etler to t~e State lndlr.ating that the appeal was under
                                review by the OIG as of April22, 2013, and as of that date the ~quest for
                                reconsideration was no longer under reotiew bv fEMA.




www.oig.dhs.gov                                                   14                                                   OIG-14-01-D
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                           Appendix C
                                    Report Distribution

Department of Homeland Security
Acting Secretary
Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Under Secretary for Management

Federal Emergency Management Agency
Administrator
Regional Administrator, FEMA Region VI
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-13-037)
Audit Liaison, FEMA Louisiana Recovery Office

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform



www.oig.dhs.gov                               15                            DD-14-01-D
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
